No.
In the Supreme Court of the United States

John E. Reardon, Petitioner, Pro Se
v
Officer Leason & Simon of Runnemede, Andrew Rossetti, Karen Caplan,
Kevin Walshe, James Farmer and Frank Soltis, Howard Gilfert, Warren Faulk,
Judges Joseph Greene and Isaiah Steinberg, James Mulvihill, D.Sgt. Bruce
Dawson, Appellate Judges Gaukin, Kestin, Hayden, Payne and Ashrafi, Judges
Wells, Freeman, Pugliese and Ragonese and Ms. Martha Shaw.
On Petition for a Writ of Certiorari
To the United States Cour of Appeals
For the Third Circuit
Affidavit of Service.
I, John E, Reardon, Hereby state, attest and affirm before Almighty God as
my witness that I have mailed a copy of this petition to Brian Wilson of the New
A

Jersey Attorney General’s office at 25 Market Street; P.O. Box 112; Trenton, N.J.
08625 by placing said same in the regular mail system in Berlin, N.J. 08009 on
Wednesday, August 27, 2020,
John E. Reardon, Pro Se
1 Joans Lane
Berlin, N.J. 08009*1516
Home/Fax: 856-753-5116
Cell:
856-417-4131
Dated: August 22„ 2020

<£t

//John E. Reardon, petitioner, pro se
\

